                     U.S. DEPARTMENT OF ENERGY
                    OFFICE OF INSPECTOR GENERAL




                              REPORT ON

         INSPECTION OF THE ESTABLISHMENT AND FILLING OF

                THE DEPARTMENT'S OMBUDSMAN POSITION




Report No: DOE/IG0393                        Office of Inspections
                                             Washington, D.C. 20585
Date Issued: August 1, 1996




INFORMATION: Report on "Inspection of the Establishment and
Filling of the Department's Ombudsman Position"

The Secretary


BACKGROUND:

The subject final report is provided to inform you of our
findings and recommendations concerning our review of possible
personnel irregularities regarding the establishment and
filling of the position of Department of Energy Departmental
Conflict Resolution Ombudsman (Departmental Ombudsman) and
possible irregularities regarding the payment of per diem to
the individual selected to fill the position (the Ombudsman). By
memorandum dated December 9, 1995, you requested that the Inspector General
examine the establishment and filling of the position of
Departmental Ombudsman. In your memorandum, you said that the
examination should include the Department's determination of the
incumbent's professional qualifications, compensation level, and
eligibility for per diem payments.

The individual selected as the Departmental Ombudsman was
appointed to the position effective October 4, 1993, under an
Intergovernmental Personnel Act (IPA) Assignment Agreement. Her
duty station was designated as Washington, D.C., and her initial
appointment was effective October 4, 1993, not to exceed
September 30, 1994. Her appointment was at the grade of
GM-15 at a salary of $86,589. In accordance with the provisions
in her IPA Assignment Agreement, she received per diem payments
of $35 per day while in Washington, D.C. At the time of her
appointment, the Ombudsman owned a home in Orange, New Jersey,
and was employed by the Newark Board of Education, Newark, New
Jersey, as a school social worker at a salary of $62,424, which
included longevity payments.

DISCUSSION:

Regarding the establishment and filling of the Departmental
Ombudsman position, we concluded that the establishment of the
Departmental Ombudsman position at the GM-15 level was consistent
with grade levels of ombudsman positions in other Federal
entities and that the classification action was performed in
accordance with applicable personnel guidelines. Also, we found
that the establishment of a Departmental Ombudsman position in
the Department was not unique within the Federal government. We
concluded that the excepted appointment of the individual
selected for the Departmental Ombudsman position as a temporary
Federal employee under an IPA Assignment Agreement was in
accordance with applicable personnel regulations. Further, we
concluded that there were deficiencies in the processing of the
initial IPA Assignment Agreement extension. Specifically, we
found evidence that the Office of Personnel did not have an IPA
Assignment Agreement signed by all necessary parties at the time
it processed the Standard Form 50, Notification of Personnel
Action (SF-50), that extended the Ombudsman's excepted
appointment from October 1, 1994, through June 30, 1995.

Regarding payment of per diem to the Ombudsman, we concluded that
although payment of per diem to the Ombudsman beyond one year was
contrary to Federal and Departmental guidelines, the payment of
per diem beyond one year under the provisions in her IPA
Assignment Agreements was not legally prohibited. Further, in
our view, the Ombudsman's sale of her home in New Jersey did not
affect her entitlement to receive per diem in accordance with the
provisions of the IPA Assignment Agreements under which she was
assigned. These Agreements did not make her receipt of per diem
contingent upon her residence and we did not find that these
provisions were contrary to law. Thus, we believe that the
Ombudsman was entitled to the per diem specified in her IPA
Assignment Agreements.

We found that the Chief Financial Officer, who is the official
authorized to determine the existence and amount of employee
debt, did not make a formal decision with respect to the
existence of a debt owed by the Ombudsman. We also found that
the Chief Financial Officer's authority had not been delegated to
the officials who caused the recoupment of the per diem payments.
We interviewed these officials and, although their actions
resulted in the recoupment of the per diem payments, none of
these officials said that they made the determination that a debt
existed.

We found that when the Office of General Counsel concurred in the
issuance of the demand letter for recoupment of per diem payments
that had been made to the Ombudsman, the Office of General
Counsel was concurring only in the adequacy of the form of the
demand letter and not in the determination that the Ombudsman was
not entitled to per diem following the sale of her home. During
our discussions with officials in the Office of the Assistant
General Counsel for General Law, we raised questions regarding
the legal basis for the determination that a debt existed and the
issuance of a demand letter to recoup the per diem payments from
the Ombudsman. We understand that the Office of General Counsel
has initiated a legal review of issues regarding the payment of
per diem to the Ombudsman under her IPA Assignment Agreements.
We were told that by August 22, 1996, the Office of General
Counsel will provide its legal opinion to the Chief Financial
Officer.

We also found that procedures were not in place to ensure that a
determination was made whether per diem received by the Ombudsman
was subject to Federal tax withholding. Therefore, per diem
payments received by the Ombudsman under her IPA Assignment
Agreements may not have been subjected by the Department to
proper tax withholding.

Of the ten recommendations included in our report, four were made
to the Assistant Secretary for Human Resources and
Administration, two to the General Counsel, and four to the Chief
Financial Officer. We recommended, among other things, that the
Assistant Secretary for Human Resources and Administration, in
coordination with the Office of the Chief Financial Officer,
ensure that the review and approval of initial IPA Assignment
Agreements that contain provisions for the payment of per diem,
and extensions of those Agreements, include a determination of
the appropriateness of providing per diem or continuing per diem;
that the General Counsel determine whether payment of per diem to
the Ombudsman pursuant to her IPA Assignment Agreements and
subsequent to the sale of her residence in New Jersey, and the
Departmentms debt collection action to recoup per diem paid to
the Ombudsman after the sale of her residence, were consistent
with law and regulation; and that the Chief Financial Officer,
based on the legal opinion of the General Counsel regarding the
entitlement of the Ombudsman to receive per diem under the
provisions of her IPA Assignment Agreements, determine what
additional actions are appropriate. Management concurred with
all our recommendations.




                               John C. Layton
                               Inspector General

Attachment

cc:   Deputy Secretary
       Under Secretary
       General Counsel
       Chief Financial Officer
       Assistant Secretary for Human Resources and Administration
       Director, Office of Economic Impact and Diversity



                             REPORT ON
            INSPECTION OF THE ESTABLISHMENT AND FILLING OF
                  THE DEPARTMENT'S OMBUDSMAN POSITION


                              TABLE OF CONTENTS

                                                                 Page


I.     INTRODUCTION AND PURPOSE     ..........................     4

II.     SCOPE AND METHODOLOGY     ............................     5

III.     BACKGROUND   ......................................       5

IV.     SUMMARY OF RESULTS     ...............................     6

V.     RESULTS OF INSPECTION     .............................     9

        Establishment of Position and Appointment of
          Ombudsman ......................................         9

             A.   Establishment of the Departmental Ombudsman
                      Position ............................        9

             B.   Initial Appointment of the Ombudsman    ....    11

             C.   Extensions of the Ombudsmanms IPA Assignment
                      Agreement ...........................       20

        Payment of Per Diem Under the IPA Assignment
         Agreement .......................................        22

             Provisions For the Payment of Per Diem Under IPA
               Assignment Agreements .....................        23

             Provisions For Payment of Per Diem Under the
               Ombudsmanms Initial IPA Assignment Agreement ..    24

             Payment of Per Diem Under Initial IPA Assignment
               Agreement Extension .......................        25

             Processing of Vouchers to Obtain Per Diem
               Payments ..................................        26

             Recoupment of Per Diem Payments From the
               Ombudsman .................................        31

             Withholding For Per Diem Payments     ...........    37

VI.      RECOMMENDATIONS     .................................    39

VII.     MANAGEMENT COMMENTS     .............................    40
                      U.S. DEPARTMENT OF ENERGY
                     OFFICE OF INSPECTOR GENERAL
                        OFFICE OF INSPECTIONS
                       WASHINGTON, D.C. 20585


                              REPORT ON
           INSPECTION OF THE ESTABLISHMENT AND FILLING OF
                 THE DEPARTMENT'S OMBUDSMAN POSITION


This is an Office of Inspector General (OIG) Report of Inspection
regarding our review of possible personnel irregularities
regarding the establishment and filling of the position of
Departmental Conflict Resolution Ombudsman (Departmental
Ombudsman) and possible irregularities regarding the payment of
per diem to the individual selected to fill the position (the
Ombudsman).

This inspection was conducted in accordance with the Quality
Standards for Inspections issued by the President's Council on
Integrity and Efficiency.


I.    INTRODUCTION AND PURPOSE

By memorandum dated December 9, 1995, to the Inspector General,
Subject: lIndependent Examination of Secretarial Foreign Travel,
and the Establishment and Filling of the Position of Departmental
Ombudsman,n the Secretary, Department of Energy (DOE), requested
that the Inspector General examine the establishment and filling
of the position of Departmental Ombudsman. The Secretary said
that the examination should include the Departmentms
determination of the incumbentms professional qualifications,
compensation level, and eligibility for per diem payments.

We identified the following issues for review:

     1. Were there personnel irregularities relating to the
Department's establishment of a GM-15 position of Departmental
Ombudsman and the selection and appointment under an
Intergovernmental Personnel Act (IPA) Assignment Agreement of
the individual selected to fill the position?

     2. Was payment to the Ombudsman of per diem for a period of
almost two years in accordance with applicable policies and
procedures?


II.    SCOPE AND METHODOLOGY

In conducting our inspection, we interviewed the Secretary, DOE
Headquarters officials in the Office of the Secretary, the Office
of the Chief Financial Officer, and the Office of General
Counsel, and current and former DOE Headquarters officials in the
Office of Economic Impact and Diversity and the Office of Human
Resources and Administration. We also interviewed an individual
who worked with the Secretary on the early staffing and
organization phases of her administration of the Department. We
reviewed applicable Federal and DOE personnel and travel
regulations; documents regarding the appointment of the Ombudsman
under an IPA Assignment Agreement; documents relating to the
payment of per diem expenses to the Ombudsman under the IPA
Assignment Agreement; and documents regarding the recoupment of
per diem payments from the Ombudsman.


III.    BACKGROUND

The individual selected as the Departmental Ombudsman was
appointed to the position effective October 4, 1993, under an IPA
Assignment Agreement authorized by 5 U.S.C. 3374, Assignments of
employees from State or local governments. Her duty station was
designated as Washington, D.C., and her initial appointment was
effective October 4, 1993, not to exceed September 30, 1994. Her
appointment was at the grade of GM-15 at a salary of $86,589. At
the time of her appointment, the Ombudsman owned a home in
Orange, New Jersey, and was employed by the Newark Board of
Education, Newark, New Jersey, as a school social worker at a
salary of $62,424, which included longevity payments.

IV.    SUMMARY OF RESULTS

The Secretary told us that she had been concerned with the racial
strife and low morale in the Department and felt that something
needed to be done. She said that she had known the individual
subsequently selected as the Ombudsman for about 35 years. The
Ombudsman said that she had offered her services to the Secretary
at the Secretary's swearing-in ceremony. According to the
individual who had served as liaison to the Transition Team and
who had worked with the Secretary on organizing and staffing the
Department, the Secretary advised him that the individual
subsequently selected as the Ombudsman was willing to come to
Washington and the Secretary asked him to see what he could do.
By letter dated February 9, 1993, the Ombudsman submitted her
resume to the Transition Team liaison. The Transition Team
liaison said that he probably came up with the idea of an
ombudsman-type position. He said that he had learned of the
background of the Ombudsman and he felt this was something that
she could do. The Transition Team liaison asked the Director,
Office of Personnel, to explore whether the individual
subsequently selected as the Ombudsman could be assigned to a
position in the Department under the Intergovernmental Personnel
Act (IPA). The Director, Office of Personnel, confirmed that
such an assignment was allowed under the IPA and said that he
received "an okay" from the Transition Team liaison to proceed
with an appointment. According to the Secretary, she could not
recall giving specific direction to establish an ombudsman
position or to put the individual selected as the Ombudsman into
the position.

The individual selected as the Ombudsman was appointed as a
temporary Federal employee to the position of Departmental
Conflict Resolution Ombudsman (Departmental Ombudsman) under an
IPA Assignment Agreement, which was for the period from October
4, 1993, through September 30, 1994. She was appointed at a
salary of $86,589. Her salary with the Newark Board of Education
was $62,424, which included longevity payments. In accordance
with the provisions in the IPA Assignment Agreement, she also
received per diem payments of $35 per day while in Washington,
D.C.

Regarding the establishment and filling of the Departmental
Ombudsman position, we concluded that the establishment of the
Departmental Ombudsman position at the
GM-15 level was consistent with grade levels of ombudsman
positions in other Federal entities and that the classification
action was performed in accordance with applicable personnel
guidelines. Also, we found that the establishment of a
Departmental Ombudsman position in the Department was not unique
within the Federal government. We concluded that the excepted
appointment of the individual selected for the Departmental
Ombudsman position as a temporary Federal employee under an IPA
Assignment Agreement was in accordance with applicable personnel
regulations. Further, we concluded that there were deficiencies
in the processing of the initial IPA Assignment Agreement
extension. Specifically, we found evidence that the Office of
Personnel did not have an IPA Assignment Agreement signed by all
necessary parties at the time it processed the Standard Form 50,
Notification of Personnel Action
(SF-50), that extended the Ombudsman's excepted appointment from
October 1, 1994, through June 30, 1995.

Regarding payment of per diem to the Ombudsman, we concluded that
although payment of per diem to the Ombudsman beyond one year was
contrary to Office of Personnel Management (OPM), Comptroller
General, and Departmental guidelines, the payment of per diem
beyond one year under the provisions in her IPA Assignment
Agreements was not legally prohibited. Further, in our view, the
Ombudsmanms sale of her home in New Jersey did not affect her
entitlement to receive per diem in accordance with the provisions
of the IPA Assignment Agreements under which she was assigned.
These Agreements did not make her receipt of per diem contingent
upon her residence and we did not find that these provisions were
contrary to law. Thus, we believe that the Ombudsman was
entitled to the per diem specified in her IPA Assignment
Agreements.

The Ombudsman's initial IPA Assignment Agreement, which was for
the period from October 4, 1993, through September 30, 1994,
contained a provision to pay her $35 per day while she was in
Washington, D.C. Subsequent IPA Assignment Agreements, which
extended the period of her assignment through September 30, 1997,
also contained the provision regarding per diem payments. We
found that the Ombudsman was not provided specific information
regarding her responsibilities under the IPA Assignment
Agreements and that initially neither the staff of the office to
which the Ombudsman was assigned nor the Ombudsman knew how to
claim per diem for the Ombudsman under the IPA. The Ombudsman
subsequently applied for and received payments of per diem for
the period October 1993 to August 1995.

In late 1995, questions were raised regarding whether she was
entitled to per diem payments following the sale of her home in
New Jersey in December 1993. Discussions among members of the
Office of the Chief Financial Officer and the Office of Human
Resources and Administration resulted in a consensus that she was
not entitled to receive per diem payments under her IPA
Assignment Agreements for the period following the sale of her
home. A demand letter was drafted by the Office of the Chief
Financial Officer and concurrence obtained from the Assistant
General Counsel for General Law. The Ombudsman immediately
repaid the amount of per diem payments identified in the demand
letter.

We found that the Chief Financial Officer, who is the official
authorized to determine the existence and amount of employee
debt, did not make a formal decision with respect to the
existence of a debt owed by the Ombudsman. The Chief Financial
Officer told us that recoupment actions are routinely handled by
members of his office and do not require his specific approval.
The Chief Financial Officer said that three offices were involved
in making the determination that the Ombudsman needed to repay
per diem that she received following the sale of her home in New
Jersey. He said that he was aware that a determination had been
made and that a demand letter had been sent to the Ombudsman to
recoup the per diem payments, but that he did not take any
specific action, such as signing a formal document, to establish
the existence of a debt. He said that since his office took
action to recoup the per diem payments, he was responsible for
the action.

We found that the Chief Financial Officer's authority had not
been delegated to the officials who caused the recoupment of the
per diem payments. When we interviewed the Director, Office of
Headquarters Accounting Operations, regarding the authority to
determine the existence and amount of employee debt, he said that
he had been making these determinations, but had been recently
advised that he did not have written delegated authority to
perform this function on behalf of the Chief Financial Officer.
He said that, with respect to the Ombudsman, he had not made the
determination that a debt existed. We also interviewed the other
officials involved in the process of recouping the per diem
payments from the Ombudsman. Although their actions resulted in
the recoupment of the per diem payments, none of these officials
said that they made the determination that a debt existed.

We found that when the Office of General Counsel concurred in the
issuance of the demand letter for recoupment of per diem payments
that had been made to the Ombudsman, the Office of General
Counsel was concurring only in the adequacy of the form of the
demand letter and not in the determination that the Ombudsman was
not entitled to per diem following the sale of her home. During
our discussions with officials in the Office of the Assistant
General Counsel for General Law, we raised questions regarding
the legal basis for the determination that a debt existed and the
issuance of a demand letter to recoup the per diem payments from
the Ombudsman. We understand that the Office of General Counsel
has initiated a legal review of these matters.

We also found that procedures were not in place to ensure that a
determination was made whether per diem received by the Ombudsman
was subject to Federal tax withholding. Therefore, per diem
payments received by the Ombudsman under her IPA Assignment
Agreements may not have been subjected by the Department to
proper tax withholding.



V.   RESULTS OF INSPECTION

ESTABLISHMENT OF POSITION AND APPOINTMENT OF OMBUDSMAN

1. Were there personnel irregularities relating to the
Departmentms establishment of a GM-15 position of Departmental Ombudsman
and the selection and appointment under an Intergovernmental Personnel
Act (IPA) Assignment Agreement of the individual selected to fill the
position?

We divided this issue into three sub-issues. We reviewed (A)
whether there were personnel irregularities regarding the
establishment of the Departmental Ombudsman position; (B) whether
there were personnel irregularities regarding the initial
appointment of the Ombudsman under her IPA Assignment Agreement;
and (C) whether there were personnel irregularities regarding
extensions of the Ombudsmanms initial IPA appointment.

Regarding the establishment and filling of the Departmental
Ombudsman position, we concluded that the establishment of the
Departmental Ombudsman position at the
GM-15 level was consistent with grade levels of ombudsman
positions in other Federal entities and that the classification
action was performed in accordance with applicable personnel
guidelines. Also, we found that the establishment of a
Departmental Ombudsman position in the Department was not unique
within the Federal government. We concluded that the excepted
appointment of the individual selected for the Departmental
Ombudsman position as a temporary Federal employee under an IPA
Assignment Agreement was in accordance with applicable personnel
regulations. Further, we concluded that there were deficiencies in the
processing of the initial IPA Assignment Agreement extension.
Specifically, we found evidence that the Office of Personnel did
not have an IPA Assignment Agreement signed by all necessary
parties at the time it processed the Standard Form 50,
Notification of Personnel Action (SF-50), that extended the Ombudsman's
excepted appointment from October 1, 1994, through June 30, 1995.

A.   Establishment of the Departmental Ombudsman Position

We concluded that the establishment of the Departmental Ombudsman
position at the GM-15 level was consistent with grade levels of
ombudsman positions in other Federal entities and the
classification action was performed in accordance with applicable
personnel guidelines. Also, we found that the establishment of a
Departmental Ombudsman position in the Department was not unique
within the Federal government.

In 1990, the Administrative Conference of the United States
recommended the establishment of ombudsman positions in Federal
agencies that deal with the public. The recommendation provided
in part that "Federal agencies that administer programs with
major responsibilities involving significant interactions with
members of the general public are likely to benefit from
establishing an ombudsman service." In a report issued in May
1991, the Administrative Conference of the United States
recognized that "Ombudsmen come in a variety of forms. For
example, internal employee grievance officers and information-and-
referral officers may use the name."

Data collected as part of a study of ombudsman positions within
the Federal government conducted by a visiting fellow in the
Office of the Ombudsman, Federal Deposit Insurance Corporation,
showed that as of January 3, 1996, 14 Federal entities had
established ombudsman positions that dealt primarily with
internal disputes. The grades for the positions ranged from GS-
14 to Senior Executive Service.

With respect to the establishment of the DOE Departmental
Ombudsman position, the Secretary said that she had been
concerned with the racial strife and low morale in the Department
and felt that something needed to be done. She said that an
individual who had been serving as liaison with the Transition
Team and who had been responsible for such things as personnel
matters determined the need for an ombudsman. She said that she
understood the concept of an ombudsman. She also said that she
could not recall giving specific direction to establish an
ombudsman position and that it was her practice not to "meddle"
in the establishment of positions. She said that the Transition
Team liaison mentioned to her that the individual subsequently
selected for the Departmental Ombudsman position would be a "good
fit" for the position.

According to the individual who had served as liaison to the
Transition Team, he assisted the then Secretary-designate (the
Secretary), as early as December 1992, with organization and
staffing planning for the Department. He said that one of the
Secretary's early goals was to address employee morale and create
an atmosphere of openness. He also said that an ombudsman-type
position was considered to carry out this goal and that he might
well have raised the concept of an ombudsman position. He said
that he had learned of the background of the individual
subsequently selected as the Ombudsman and felt that this was
something she could do.

According to the Director, Office of Personnel, it was his
understanding that it was the Secretary's assessment that the
Department needed help in employee morale and dispute resolution.
He said that he was told by the Transition Team liaison that the
individual selected for the Departmental Ombudsman position could
fill the need.
Actions were subsequently initiated to establish the Departmental
Ombudsman position. Although we could not determine who prepared
the initial draft position description, a draft position
description was reviewed and edited by the then Acting Director
of the Office of Civil Rights, Office of Economic Impact and
Diversity (ED), the office to which the Departmental Ombudsman
position was to be assigned. The position description was then
evaluated against the Administrative Analysis - Grade Evaluation
Guide (Guide), TS-98, dated August 1990, by a Personnel
Management Specialist and a Classification Specialist in the
Office of Personnel. Both these individuals signed the Position
Evaluation Statement, which summarized the points assigned to the
various evaluation factors for the position. The points assigned
to the Position Evaluation Statement for the Departmental
Ombudsman position description resulted in the position being
classified at the grade 15 level.

Following the determination that the position description
supported a position at the grade 15 level, the Acting Director,
ED, certified that the duties and responsibilities of the
position were accurately stated in the position description and
the position was necessary to carry out government functions for
which he was responsible. In addition, the Office of Personnel
Classification Specialist certified that the position lhad been
classified consistent with the most applicable standards
published by the Office of Personnel Management.n

B.   Initial Appointment of the Ombudsman

We concluded that the excepted appointment of the individual
selected for the Departmental Ombudsman position as a temporary
Federal employee under an IPA Assignment Agreement, for the
period from October 4, 1993, through September 30, 1994, was in
accordance with applicable personnel regulations. In the
following sections, we will discuss how the candidate was
identified for the Ombudsman position; the appointment of the
candidate under the authority of the IPA; the process by which
the Department determined the candidate was qualified for the
position; and the basis for the Department's appointment of the
Ombudsman at a salary higher than her non-Federal salary.

      Identification of the Candidate for Ombudsman Position

The Secretary said that she had known the Ombudsman for about 35
years. According to the Ombudsman, she had offered her services
to the Secretary at the Secretaryms swearing-in ceremony. With
respect to contacts between the Ombudsman and the Secretary prior
to the Ombudsman's appointment, the Secretary said that the
Ombudsman may have called her once or twice before the Ombudsman
accepted the position. The Secretary said the conversations
concerned the Ombudsman's ambivalence about leaving New Jersey to
come to Washington, D.C. The Secretary said she might have
discussed with the Ombudsman, prior to the Ombudsman's
appointment, the fact that the Ombudsman could return to New
Jersey after her assignment. The Secretary also said she had
told the Ombudsman that she would probably have to leave in four
years if she (the Secretary) left. The Secretary said that she
had no discussions with the Ombudsman or anyone regarding salary,
grade level, or type of appointment for the Ombudsman. She also
said that she did not ask to be kept informed of the status of
the Ombudsman's personnel action, nor was she kept informed.

According to the individual who had served as liaison to the
Transition Team and who had worked with the Secretary on
organizing and staffing the Department, the Secretary advised him
that the individual subsequently selected as the Ombudsman was
willing to come to Washington and the Secretary asked him to see
what he could do.

By letter dated February 9, 1993, the Ombudsman submitted her
resume to the Transition Team liaison. The Transition Team
liaison said that the Ombudsman was seen as a "good fit" for the
ombudsman-type position and that he asked the Director, Office of
Personnel, to explore whether the Ombudsman could be assigned to
a position in the Department under the IPA.

The Director, Office of Personnel, said that once he saw that the
Ombudsman worked for the Newark, New Jersey, school system, he
believed that an IPA assignment was an option. Notes of staff
members in the Office of Personnel show that they had determined
the Ombudsman was eligible for assignment under the IPA. The
Director, Office of Personnel, said that he confirmed that such
an assignment was allowed under the IPA and said that he received
"an okay" from the Transition Team liaison to proceed with an
appointment.

The Secretary said that she could not recall giving specific
direction to establish an ombudsman position or to put the
individual selected as Ombudsman in the position.

     Use of IPA Authority to Make Appointment

The Ombudsman was appointed under the authority of the provision
of the IPA codified as 5 U.S.C. 3374. That section provides
that:

     "An employee of a State or local government who is
     assigned to an executive agency under this subchapter
     may -- (1) be appointed in the executive agency without
     regard to the provisions of this title governing
     appointment in the competitive service for the agreed
     period of the assignment or (2) be deemed on detail to
     the executive agency."

Under the provisions of the IPA cited above, an individual on an
IPA assignment may be given a temporary appointment as a Federal
employee or they may be assigned by detail to a Federal agency.
The Ombudsman, who is an employee of the Newark Board of
Education, was appointed as a temporary Federal employee under
her IPA Assignment Agreement. According to the Personnel
Management Specialist, who identified herself as the Department's
expert on the IPA, this was the first IPA assignment that she had
seen where the employee was appointed to a position rather than
detailed to the Department. She said that normal practice under
IPA Assignment Agreements was to detail the individual to the
Department. She said that under the appointment, the Department
had greater flexibility in terms of salary that could be offered
to the Ombudsman. Specifically, only through an appointment
could the Department use the Superior Qualifications Appointment
authority to obtain the salary level desired by the Ombudsman.

We reviewed applicable statute, regulations, and provisions of
the Federal Personnel Manual (FPM) that were in effect at the
time of the Ombudsman's appointment. As an appointee to a
Federal position, the Ombudsman was eligible for pay at an
advanced step (up to Step 10) for the GM-15 position based on
regulations regarding superior qualifications appointments.
Individuals who are detailed to a position, the duties of which
have not been classified, continue to receive a rate of pay based
on their non-Federal job. If the individuals are assigned by
detail to a position, the duties of which have been classified at
a particular grade level, they are entitled to have their pay
supplemented by the Federal agency if their state or local salary
is less than the minimum rate of pay (Step 1) for the Federal
position. In any case, the Federal agency may agree to pay all,
some, or none of the costs, including supplemental pay,
associated with an assignment.

     Determination of Candidate's Qualifications

The Director, Office of Personnel, in approving the Request To
Use Appointment Above-The-Minimum Rate For Superior Qualification
for the Ombudsman's appointment at a salary at the step 10 of the
GM-15 grade level, also made the determination that the Ombudsman
met the qualification requirements for appointment at the GM-15
level. He signed the request form based on the recommendation of
a Personnel Staffing Specialist who was assigned to review the
documentation for the appointment of the Ombudsman above-the-
minimum rate.

In comments dated July 8, 1996, on our initial draft report, the
Assistant Secretary for Human Resources and Administration said
that the Director of Personnel (currently the Deputy Assistant
Secretary for Human Resources) was at that time and is still the
appropriate approving official for advanced-in-hire (above-the-
minimum) rates, which, as in this case, are more than 20 percent
higher than a candidatems existing pay. Our review of DOE Order
3550.1A, Pay Administration and Hours of Duty, Change 2, dated
August 21, 1992, showed that the Director of Personnel has the
authority and responsibility for approving the appointment of an
employee to a position in grade
GS-11 or above at a rate above the minimum rate of the grade,
i.e., an advanced-in-hire rate.   Our review of additional
documentation provided by the Office of Human Resources showed
that the Director, Office of Personnel, was the official with the
authority to approve salary rates that exceeded applicantsm
existing pay by more than 20 percent.

The Office of Personnel staff that we interviewed, who had
responsibility for processing the Ombudsmanms IPA appointment or
for effecting the personnel action appointing her to the
Ombudsman position, said that they did not review the Ombudsmanms
Form SF-171, Application for Federal Employment, to determine her
qualifications for the position at the GM-15 level. Documents
provided by the Office of Personnel show that based on a review
of the initial SF-171 submitted by the Ombudsman, staff members
within the Office of Personnel had raised questions regarding the
Ombudsmanms qualifications for the GM-15 level position.
Subsequently, the Ombudsman submitted a revised SF-171. The
Personnel Management Specialist to whom the Ombudsman submitted
her SF-171 said that she had not made a determination of the
Ombudsmanms qualifications at the GM-15 level based on a review
of her SF-171. According to the staff member whose office
normally would have processed an IPA assignment to a position in
the Office of Economic Impact and Diversity (ED), a review of an
individualms qualifications is routinely conducted by the office
prior to an assignment. She said that her office did not have
responsibility for the assignment of the Ombudsman and her staff
had not conducted such a review of the individual's
qualifications in this case.

However, the Personnel Staffing Specialist, who reviewed the
documentation for the appointment of the Ombudsman above-the-
minimum rate, said that her review included a review of the
Ombudsman's SF-171. She said that based on her review, she
determined that the Ombudsman met the qualification requirements
for the GM-15 position and that appointing the Ombudsman to a
position above-the-minimum rate was justified. She said that, as
a result, she signed the Request To Use Appointment Above-The-
Minimum Rate For Superior Qualification form recommending
approval and forwarded the form to the Director, Office of
Personnel.

The Director, Office of Personnel, said that he believed the
Ombudsman's appointment at the GM-15 level was justified. We
reviewed the undated Request To Use Appointment Above-The-Minimum
Rate For Superior Qualification form signed by the Director,
Office of Personnel. According to the request form, his
signature approved the proposal to select the candidate for the
position of Departmental Conflict Resolution Ombudsman, GM-301-
15, at a salary of $86,589 per annum (GM-15, Step 10).

     Determination of Candidate's Salary Level

The payment by the Department of the salary requested by the
Ombudsman, which was higher than the salary she received with the
Newark Board of Education, was allowable under applicable
personnel regulations. According to documents provided by the
Newark Board of Education, the Ombudsman's salary, including
longevity payments, was $62,424. The Ombudsman requested a
salary of $87,000 on the SF-171s that she submitted. She subsequently
was appointed at the maximum salary level for a GS-15 (GM-15), which was
$86,589. The salary level of $86,589 was approved by the Director, Office
of Personnel, based on her qualifications, the specialized job
requirements, and special need of the Department for her services.

By memorandum dated July 8, 1996, the Assistant Secretary for
Human Resources and Administration provided comments on our
initial draft report.   He said that:

     "Elements of the discussion on page 18 of the initial draft
report of the Inspector General invite the perception that, upon
joining the Department of Energy, [the Ombudsman] benefited financially,
over and above her earnings when employed by the Newark Board of
Education. It is important to note that [the Ombudsman's] work year
in New Jersey was 900 hours; her work year at the Department of
Energy is 2000 hours. Thus, while her gross annual salary increased
by 28 % when she joined the Department of Energy, the total number
of hours she worked per year increased by 55 %. On this basis of
comparison, [the Ombudsman] worked for less pay per hour at the
Department of Energy than she did with the Newark Board of Education.
In addition, by coming to the Department of Energy, [the Ombudsman]
lost several pension benefits and was required to accept a reduced level
of sick leave accrual."

We contacted the Newark Board of Education with respect to the
work requirements of Board of Education employees. We were
advised by the Assistant Personnel Director of the Newark Board
of Education that 10-month employees, such as the Ombudsman, were
expected to perform classroom work 180 days per year; the workday
was considered to be five and one-half hours per day; and with
days off, the total workyear consisted of 211 days. He also
advised us that the salaries of 10-month employees were
considered to constitute five-sixths of the salary of employees
that work 12 months per year. The Assistant Personnel Director
said that if someone wanted to calculate an hourly salary rate,
they could divide the employeems annual salary rate by the total
workyear hours, i.e., 5.5 hours times 211 days.

     Applicable Federal Statute, Rules, and Regulations

 Federal statute states that:

     "New appointments shall be made at the minimum rate of
     the appropriate grade. However, under regulations
     prescribed by the Office of Personnel Management, which
     provide for such considerations as the existing pay or
     unusually high or unique qualifications of the
     candidate, or a special need of the Government for his
     services, the head of an agency may appoint, with the
     approval of the Office in each specific case, an
     individual to a position at such a rate above the
     minimum rate of the appropriate grade as the Office may
     authorize for this purpose." (5 U.S.C. 5333).

The FPM stated, with respect to IPA assignees, that:

     "Normally, a State or local government employee is
     appointed at the minimum rate of the grade. If an
     agency wants to pay an advanced step rate for a
     position at GS 11 through GS 15 based upon superior
     qualifications of the applicant, it must either: (1)
     obtain prior written approval from the appropriate
     office of OPM . . . or (2) make its own determination
     under a delegation agreement authorized by OPM for that
     purpose." (FPM Chapter 334, Temporary Assignments Under
     the Intergovernmental Personnel Act, subchapter 4,
     subparagraph 4-3a(3), dated December 1, 1983).

OPM regulations published in the Federal Register on October 22,
1991, which became effective on November 21, 1991, authorized
agencies to make superior qualifications appointments and removed
the requirement for OPM approval for salary increases above 20
percent of their non-Federal salary. As part of the regulations,
OPM required that: "[E]ach agency using the superior
qualifications authority must establish appropriate internal guidelines
and evaluation procedures to ensure compliance with law, these regulations,
and agency policies." (5 C.F.R. 531.203(b)(5), Superior qualifications
appointments).

     Internal Departmental Guidelines and Evaluation Procedures

We obtained internal Departmental guidelines for superior
qualifications appointments from files maintained by the
Personnel Management Specialist responsible for preparing the
Ombudsmanms IPA Assignment Agreement. These internal guidelines
required that justifications for superior qualifications
appointments address certain factors, including:

     "1. A brief description of the purpose and
     requirements of the position which the candidate has
     been offered (summary of the position description and
     any other pertinent information).

     "2. A description of the candidatems qualifications
     compared to the requirements of the position.

          "- How do the candidate's qualifications compare
     to the fully successful standard for the position?

           "- If there is special need for candidate's unique
               talents no formal nor informal recruitment has been
               done, describe the nature of the special need, as
               follows:

                "o   articulated agency mission and expressed
                     Secretarial priority as it relates to this position;

                "o   reason for not advertizing conducting [sic]
informal
                     recruitment;

                "o   recent experience or other judgment factors
                     which support organizationms conclusion that
                     recruitment would not be likely to produce
                     equally well-qualified candidates with less
                     expensive salary requirements.


     "3.   Candidate's current or prospective pay situation
           and documentation:
          "- Current salary (attach earnings statement).

          l- Pay which will be forfeited upon federal
             employment (attach and annotate supporting documentation).

               "o   benefits such as health/life/retirement plans
                    substantially better or less expensive than
                    comparable Federal benefits.

               "o   bonuses received on a regular basis
                    (reflected on earnings statement or other
                    documentation). . . ."

In addition, the Department uses a form, Request To Use
Appointment Above-The-Minimum Rate For Superior Qualification,
for the processing of requests for superior qualifications
appointments. This form describes the following documents as
possible attachments: "Memorandum of Request with appropriate
concurrence; Selectee's SF-171, classified position description;
Written justification which identifies all pertinent information;
Documentation of existing pay which is in agreement with SF-171 and
written justification; Offer letter, declination letter or certification
by staffing specialist that offer was made at the step 1 and was
declined because of pay consideration."

     Documentation In Support of the Ombudsman's Superior
     Qualifications Appointment

We reviewed the undated Request To Use Appointment Above-The-
Minimum Rate For Superior Qualification form for the appointment
of the Ombudsman, which had been signed and approved by the
Director, Office of Personnel. This request form had items
checked indicating that of the possible attachments to the
request, the Director, Office of Personnel, had been provided the
possible attachments described above except for a "Memorandum of
Request with appropriate concurrence" and an "offer letter,
declination letter or certification by staffing specialist that
offer was made at the step 1 and was declined because of pay
consideration." The written justification described above was a
document titled JUSTIFICATION FOR ADVANCED-IN-HIRE.

According to the JUSTIFICATION FOR ADVANCED-IN-HIRE document, the
Ombudsman ". . . declined an offer of employment extended by DOE
at the GM-15, step 1 salary." However, no one that we
interviewed said that an offer of salary at the Step 1 level had
been made to the Ombudsman and declined. The Director, Office of
Personnel, said that prior to the appointment of the Ombudsman,
he had discussions with her, including discussions regarding
salary. He said that he was given the impression by the
Ombudsman during these discussions that she would not accept a
salary lower than the $87,000 that she had indicated on her SF-
171. According to the Major Federal Civilian White Collar Pay
Schedules Effective January 1993, $87,000 was approximately the
salary level for a grade 15, step 10 Federal employee.

The JUSTIFICATION FOR ADVANCED-IN-HIRE also included a discussion
of the special needs of ED; the Ombudsmanms experience; and the
fact that her employer would not continue her life insurance or
deferred annuity plan during her IPA assignment. According to
the document, she would not be eligible for Federal government
life insurance or annuity coverage and would have to obtain these
benefits through private programs.

Regarding the special needs of ED, according to the JUSTIFICATION
FOR ADVANCED-IN-HIRE, the Ombudsman:

     ". . . was offered the position of Departmental
     Conflict Resolution Ombudsman in the Office of Economic
     Impact and Diversity. This is a key position to the
     successful accomplishment of the organization's
     mission; developing and administering Departmental
     policies, practices and procedures under Title VI and
     VII of the Civil Rights Act of 1964. These efforts
     improve administrative mechanisms, processes and
     procedures for preventing and resolving conflicts and,
     at the same time, retain and preserve the statutory and
     legal due process rights of the parties involved.

     "The duties of the position include advising management
     on the application of alternative dispute resolution;
     reviewing and analyzing other successful dispute
     resolution programs and systems; developing proposals
     to fit the needs of the Department; designing proposals
     to provide complainant and responsible management
     officials with several opportunities to prevent and
     avoid disputes; resolving issues and conflicts
     informally and at the earliest state; coordinating the
     implementation of alternative dispute resolution (ADP)
     [sic] pilot program; and designing and implementing a
     pilot program for Headquarters and field offices."

Regarding the Ombudsman's superior qualifications, according to
the JUSTIFICATION FOR ADVANCED-IN-HIRE, her:

     ". . . superior qualifications for the position are
     evidenced by the breadth and depth of 30 years
     experience as a social worker with the Newark Board of
     Education. In that capacity, she demonstrated
     exemplary skills in problem resolution. She is also
     the social work representative with a team of
     psychologists which trains all teachers in problem
     solving, conflicts, dispute identification,
     classification, and resolution and prevention. She
     initiates proposals, trains staff, implements pilot
     programs, and develop [sic] policy. Her team
     specializes in resolving problems that result from
     crisis situations. In addition, she works with family
     problems such as suicide, homicide, pregnancy, child
     care, neglect, abuse, gang involvement and substance
     abuse. She is a member of the Child Study Team which
     evaluates and provides service to students with special needs
     and disabilities."

The Ombudsman said that her salary request of $87,000 was based
on her assessment of an annual salary equivalent to the salary
that she was paid by the Newark Board of Education for the ten-
month, 5-hour per day, school year ($62,424). Notes provided by
the Personnel Management Specialist who worked on the appointment
of the Ombudsman showed that she performed computations that
equated the Ombudsman's salary from the Newark Board of Education
to $74,908, when computed on a full time, 12-month basis. No one
in the Office of Personnel provided us computations that showed a
dollar comparison between the salary the Ombudsman was paid by
the Department and her lcurrent or prospective pay situationn
based on her salary and associated benefits with the Newark Board
of Education. According to the Director, Office of Personnel, he
was certain that the Ombudsman would not have accepted a salary
less than the amount that she had first specified on her SF-171,
i.e., $87,000.

      Consideration of Non-Federal Salary in Making Superior
      Qualifications Appointment Determinations

Regarding superior qualifications appointments, OPM regulations,
which became effective on November 21, 1991, gave agencies
greater authority and discretion to make such appointments.
These regulations are found at 5 C.F.R. 531.203 (b). The
supplemental information published with the regulation in the
Federal Register on October 22, 1991, specifically provided that:

      "We find therefore, that requiring OPM approval for
      rates more than 20 percent higher than a candidate's
      existing pay is not necessary to ensure prudent use of
      this authority. We have also noted that the need to
      comply with the 20 percent limit may lead agencies to
      give undue weight to existing pay in justifying and
      documenting advanced rates. In fact, the candidate's
      qualifications in relation to other candidates and
      specialized job requirements, or to special need of the
      agency, carry equal weight under the law. [Emphasis
      added.]"

In our view, the granting by the Department of the higher salary
level to the Ombudsman under the authorities cited above was
allowable under applicable personnel regulations.


C.   Extensions of the Ombudsman's IPA Assignment Agreement

      Initial Extension

We concluded that there were deficiencies in the processing of
the initial IPA Assignment Agreement extension. Specifically, we
found evidence that the Office of Personnel did not have an IPA
Assignment Agreement signed by all necessary parties at the time
it processed the Standard Form 50, Notification of Personnel
Action (SF-50), that extended the Ombudsman's excepted appointment from
October 1, 1994, through June 30, 1995.

OPM regulations require a signed IPA Assignment Agreement before
an appointment can be effected (5 C.F.R. 334.106(a)). According
to the regulations, before an assignment is made the Federal
agency, the local government, and the assigned employee "shall
enter into a written agreement" which records the obligations and
responsibilities of the parties as specified in 5 U.S.C. 3373 -
3375 and in FPM Chapter 334.

On September 12, 1994, the ED Director sent a memorandum to the
Office of Personnel's Staff Programs Service Branch, requesting
that the Ombudsman's appointment be extended. An SF-50 was
approved by the Office of Personnel on September 22, 1994,
extending the Ombudsman's appointment from October 1, 1994, for a
period not to exceed June 30, 1995. The SF-50, which effected
the Ombudsman's continued appointment under the IPA from October
1, 1994, for a period not to exceed June 30, 1995, cited 5 U.S.C.
3374 (the Intergovernmental Personnel Act) as the authority for
the continued appointment. The Director, Office of Personnel,
signed the IPA Assignment Agreement extension document on
September 23, 1994, which extended her assignment for the period
October 1, 1994, through September 30, 1995, and by letter dated
the same day, forwarded the document to the Newark Board of
Education for its approval.

We reviewed a September 22, 1994, Routing and Transmittal Slip,
which was from a Personnel Specialist in the Office of Personnel
to, among others, the Director, Office of Personnel. We found
the Slip, which related to the extension of the appointment of
the Ombudsman, in a working file maintained by the Office of
Personnel. An undated handwritten note on the Slip, which was
added by the Personnel Specialist, stated that the Human Resource
Service Manager, Newark Board of Education: "Called 9/29/94.
She's signing the approval to extend [the Ombudsmanms] appt.
There is no problem. She will Fax a copy Fri. or Mon. morning."

However, we reviewed a May 26, 1995, note from the Personnel
Management Specialist who worked on the appointment of the
Ombudsman to the Director, Office of Personnel, that said the
signed Agreement was not sent to DOE. According to the note, the
Newark Board of Education had verbally approved the extension of
the Ombudsman's IPA assignment, but had never forwarded the
Department a copy of the signed agreement.

On February 9, 1996, the Assistant Personnel Director, Newark
Board of Education, provided us a copy of the IPA Assignment
Agreement extension document for the period October 1, 1994,
through September 30, 1995. We noted that although he had signed
the document, his signature was not dated.

Our review of a copy of the IPA Assignment Agreement extension
document found in Office of Personnel working files, which was
signed by the Director, Office of Personnel, on September 23,
1994, and forwarded to the Newark Board of Education for its
approval, showed that the document did not contain the signature
of the Ombudsman. The copy of the IPA Assignment Agreement
extension document provided to us by the Assistant Personnel
Director, Newark Board of Education, did not contain the
Ombudsmanms signature, but did contain the undated signature of
the Assistant Director of Personnel, Newark Board of Education,
and the signature dated September 23, 1994, of the Director,
Office of Personnel. However, a copy of the IPA Assignment
Agreement extension document provided to us by the Deputy
Director of the Departmentms Headquarters Personnel Services
Division, which had been sent to the Office of Personnel by the
Newark Public Schools, Human Resource Services, by facsimile on
June 5, 1995, contained the signature of the Ombudsman and the
signature of the Director, Office of Personnel, both dated
September 23, 1994, and the undated signature of the Assistant
Director of Personnel, Newark Board of Education.

     Subsequent Extension of IPA Assignment

We concluded that the second extension of the Ombudsman's IPA
Assignment Agreement was properly processed.

According to OPM regulations, assignments under IPA agreements
can be for up to four years (5 C.F.R. 334.104). We reviewed the
IPA Assignment Agreement document to extend the Ombudsmanms
appointment from October 1, 1995, through September 30, 1997.
The document contained the signature of the Ombudsman, dated June
8, 1995, the signature of the Deputy Assistant Secretary for
Human Resources, dated June 15, 1995, and the signature of the
Assistant Personnel Director, Newark Board of Education, dated
September 27, 1995. We also reviewed the SF-50 for the extension
of the Ombudsman's appointment. The SF-50 was effective on
October 1, 1995, after all the required signatures were affixed
to the IPA Assignment Agreement.


PAYMENT OF PER DIEM UNDER THE IPA ASSIGNMENT AGREEMENT

2. Was payment to the Ombudsman of per diem for a period of
almost two years in accordance with applicable policies and procedures?

Regarding payment of per diem to the Ombudsman, we concluded that
although payment of per diem to the Ombudsman beyond one year was
contrary to OPM, Comptroller General, and Departmental
guidelines, the payment of per diem beyond one year under the
provisions in her IPA Assignment Agreements was not legally
prohibited. Further, in our view, the Ombudsman's sale of her
home in New Jersey did not affect her entitlement to receive per
diem in accordance with the provisions of the IPA Assignment
Agreements under which she was assigned. These Agreements did
not make her receipt of per diem contingent upon her residence
and we did not find evidence that these provisions were contrary
to law. Thus, we believe that the Ombudsman was entitled to the
per diem specified in her IPA Assignment Agreements.

The Ombudsman's initial IPA Assignment Agreement, which was for
the period from October 4, 1993, through September 30, 1994,
contained a provision to pay her $35 per day while she was in
Washington, D.C. Subsequent IPA Assignment Agreements, which
extended the period of her assignment through September 30, 1997,
also contained the provision regarding per diem payments. We
found that the Ombudsman was not provided specific information
regarding her responsibilities under the IPA Assignment
Agreements and that initially neither the staff of the office to
which the Ombudsman was assigned nor the Ombudsman knew how to
claim per diem for the Ombudsman under the IPA. The Ombudsman
subsequently applied for and received payments of per diem for
the period October 1993 to August 1995.

In late 1995, questions were raised regarding whether she was
entitled to per diem payments following the sale of her home in
New Jersey in December 1993. Discussions among members of the
Office of the Chief Financial Officer and the Office of Human
Resources and Administration resulted in a consensus that she was
not entitled to receive per diem payments under her IPA
Assignment Agreements for the period following the sale of her
home. A demand letter was drafted by the Office of the Chief
Financial Officer and concurrence obtained from the Assistant
General Counsel for General Law. The Ombudsman immediately
repaid the amount of per diem payments identified in the demand
letter.

We found that the Chief Financial Officer, who is the official
authorized to determine the existence and amount of employee
debt, did not make a formal decision with respect to the
existence of a debt owed by the Ombudsman. The Chief Financial
Officer told us that recoupment actions are routinely handled by
members of his office and do not require his specific approval.
The Chief Financial Officer said that three offices were involved
in making the determination that the Ombudsman needed to repay
per diem that she received following the sale of her home in New
Jersey. He said that he was aware that a determination had been
made and that a demand letter had been sent to the Ombudsman to
recoup the per diem payments, but that he did not take any
specific action, such as signing a formal document, to establish
the existence of a debt. He said that since his office took
action to recoup the per diem payments, he was responsible for
the action.

We found that the Chief Financial Officer's authority had not
been delegated to the officials who caused the recoupment of the
per diem payments. When we interviewed the Director, Office of
Headquarters Accounting Operations, regarding the authority to
determine the existence and amount of employee debt, he said that
he had been making these determinations, but had been recently
advised that he did not have written delegated authority to
perform this function on behalf of the Chief Financial Officer.
He said that, with respect to the Ombudsman, he had not made the
determination that a debt existed. We also interviewed the other
officials involved in the process of recouping the per diem
payments from the Ombudsman. Although their actions resulted in
the recoupment of the per diem payments, none of these officials
said that they made the determination that a debt existed.

We found that when the Office of General Counsel concurred in the
issuance of the demand letter for recoupment of per diem payments
that had been made to the Ombudsman, the Office of General
Counsel was concurring only in the adequacy of the form of the
demand letter and not in the determination that the Ombudsman was
not entitled to per diem following the sale of her home. During
our discussions with officials in the Office of the Assistant
General Counsel for General Law, we raised questions regarding
the legal basis for the determination that a debt existed and the
issuance of a demand letter to recoup the per diem payments from
the Ombudsman. We understand that the Office of General Counsel
has initiated a legal review of these matters.

We also found that procedures were not in place to ensure that a
determination was made whether per diem received by the Ombudsman
was subject to Federal tax withholding. Therefore, per diem
payments received by the Ombudsman under her IPA Assignment
Agreements may not have been subjected by the Department to
proper tax withholding.

Provisions For the Payment of Per Diem Under IPA Assignment
Agreements

The provisions of the IPA and FPM guidelines permitted the
payment of per diem to an individual appointed under the IPA
while at the location to which they are assigned.

The payment of per diem to an IPA assignee is specifically
authorized by the Intergovernmental Personnel Act. The Act
permits the payment of:

          "(A) travel, including a per diem allowance, to
     and from the assignment location;

          "(B) a per diem allowance at the assignment
     location during the period of the assignment; and

          "(C) travel, including a per diem allowance,
     while traveling on official business away from his designated
     post of duty during the assignment when the head of
     the executive agency considers the travel in the
     interest of the United States . . . . "    (5 U.S.C. 3375).

The Act also permits the payment of expenses for the relocation
of an assignee, his or her immediate family, and the
transportation of household goods and personal effects. However,
guidance contained in both the FPM and decisions of the
Comptroller General permit paying per diem or relocation
expenses, but not both.

The FPM, in effect at the time of the Ombudsman's appointment,
provided that:

     "Agencies are authorized to pay either relocation
     expenses to and from the assignment location or a per
     diem allowance at the assignment location during the
     period of the assignment. The agency may select either
     of these approaches to relocation and living expenses
     but cannot pay both types of costs. The cost to the
     government should be a major factor taken into account
     when determining which approach will be used. A per
     diem allowance at the assignment location is intended
     for short term assignments and not for longer
     assignments." (FPM Chapter 334, subchapter 1,
     subparagraph 1-7b, dated December 1, 1983).

Provisions For Payment of Per Diem Under the Ombudsman's Initial
IPA Assignment Agreement

The provision contained in the Ombudsman's initial IPA Assignment
Agreement providing for her to receive per diem while she was in
Washington, D.C., was consistent with Departmental practice.

The initial IPA Assignment Agreement, which was for the period
from October 4, 1993, through September 30, 1994, was signed by
the Ombudsman and the Director, Office of Personnel, and agreed
to by the Newark Board of Education. This IPA Assignment
Agreement included a provision to pay the Ombudsman per diem at
the rate of $35 per day. The Director, Office of Personnel, said
that the payment to the Ombudsman of per diem was appropriate
given her residence in New Jersey at the time of her appointment.
A travel policy specialist in the Office of Financial Policy,
Office of the Chief Financial Officer, said that IPA assignees to
Washington, D.C., with homes elsewhere, receive per diem, but
that individuals assigned to Washington, D.C., from within their
commuting areas do not receive per diem.   We reviewed copies of
IPA Assignment Agreements that were provided to us by the Office
of Human Resources for two IPA assignees to Washington, D.C.
These showed that the IPA assignees, who lived in the local
commuting area, were not paid per diem. However, we did not find
a legal requirement for the Ombudsman to maintain a residence
outside of the Washington, D.C., commuting area to receive per
diem under the provisions of her IPA Assignment Agreements.

Payment of Per Diem Under Initial IPA Assignment Agreement
Extension

We concluded that although payment of per diem to the Ombudsman
beyond one year was contrary to OPM, Comptroller General, and
Departmental guidelines, the payment of per diem beyond one year
under the provisions in her IPA Assignment Agreements was not
legally prohibited.

According to the FPM:

     "A per diem allowance at the assignment location is
     intended for short term assignments and not for longer
     assignments. Per diem allowances should not be paid
     for more than one year." (FPM Chapter 334, subchapter
     1, subparagraph 1-7b, dated December 1, 1983).

A Comptroller General decision cited the provisions of FPM
Chapter 334, subchapter 1, paragraph 1-7b and stated ". . . we
expect that agencies will follow the principles set out in . . .
December 1983 Office of Personnel Management guidance for
subsequent IPA assignments." (Comptroller General, in Matter of
William T. Burke, B-207447, 1984 U.S. Comp. Gen. LEXIS 1354).

Prior to appointment of the Ombudsman, the Acting Director,
Personnel Policy Division, Office of Personnel, provided the
Director, Office of Personnel, with information attached to an
undated note regarding the IPA assignment of the Ombudsman.
Included in the information was a description of travel and
transportation expenses that the Department could pay to an IPA
assignee. According to the information provided:

     "DOE may provide the following: . . . Payment for
     either relocation expenses to and from the assignment
     location or a per diem allowance at the assignment
     location during the period of assignment. Either may
     be paid but not both; per diem should not be paid for
     more than one year. [Emphasis added.]"

In addition, a note dated April 22 (sent in 1994), to the ED
Director from the Director, Office of Personnel, provided to the
ED Director a copy of applicable Federal guidelines regarding
payment of per diem to IPA assignees, such as the Ombudsman.
The guidelines provided included a copy of FPM Chapter 334,
Subchapter 1, Subsection 1-7b, which specified that "Per diem
allowances should not be paid for more than one year." In his
note, the Director, Office of Personnel, stated: " . . . looks
like we are well within the intent of the policy -- for the first
year of the assignment."

Contrary to the guidelines cited above, the Department continued
to provide for the payment of per diem to the Ombudsman beyond
her initial one-year IPA Assignment Agreement. Our review of the
Ombudsman's IPA Assignment Agreement extensions for the period
from October 1, 1994, through September 30, 1995, and the period
from October 1, 1995, through September 30, 1997, showed they
contained the provision that: "Per diem will be paid at the rate
of $35 to be reduced by the $3 meal portion when on official
travel."

Our review of the Ombudsmanms travel vouchers showed that
vouchers were submitted for, and that she received per diem
payments for, the period from October 4, 1993, through August 31,
1995. Although Departmental guidelines would limit the payment
of per diem to one year, and the Department did not adhere to
these guidelines by continuing to sign IPA Assignment Agreements
that contained the provision to pay per diem to the Ombudsman, we
found no legal prohibition against providing in an IPA Assignment
Agreement for the payment of per diem to the Ombudsman for the
entire length of her IPA assignment.

Processing of Vouchers to Obtain Per Diem Payments

We found that the Ombudsman was not provided specific information
regarding her responsibilities under the IPA Assignment
Agreements and that initially neither the staff of the office to
which the Ombudsman was assigned nor the Ombudsman knew how to
claim per diem for the Ombudsman under the IPA.

A travel policy specialist in the Office of the Chief Financial
Officer said that it would be the responsibility of the office to
which an employee is assigned to discuss per diem entitlements
under the IPA Assignment Agreement with the employee. Also, the
former Acting Director of the Personnel Policy Division said that
normally personnel from the organization where an IPA assignee
would be assigned would discuss the process with the individual.
She also said that in the case of an office that rarely uses IPA
assignments, such as ED, the office would not have any knowledge
about how to handle an IPA assignment. She said that in such
cases the Office of Human Resources would lhold their handn and
walk them through the process. However, no one we interviewed in
the office to which the Ombudsman was assigned said they had
discussed the details of the IPA Assignment Agreements with the
Ombudsman.

     Inadequate Guidance To Ombudsman Regarding IPA Assignment
Agreement

Although the Ombudsman signed an IPA Assignment Agreement
containing specific conditions of her employment, she was not
provided a detailed explanation of the applicability of rules,
regulations, and policies regarding the Agreement.

Federal regulation and guidelines required the agency to provide
information to the Ombudsman regarding her obligations and
responsibilities under the IPA Assignment Agreement. OPM
regulations required that:

     "Before an assignment is made the Federal agency and the . .
. local . . . government . . . and the assigned employee
shall enter into a written agreement which records the obligations and
responsibilities of the parties as specified in 5 U.S. Code 3373-3375
and in Federal Personnel Manual Chapter 334. [Emphasis added.]" (5 C.F.R.
334.106(a)).

In addition, the FPM provided that:

     "Before the agreement is signed, the Federal agency must
inform the employee of the provisions of all appropriate statutes and
regulations or must provide copies of the information to the employee.
The employee must acknowledge receipt of this information in the
assignment agreement. [Emphasis added.]" (FPM Chapter 334, subchapter 1,
subparagraph 1-8g, dated December 1, 1983).

It does not appear that the Ombudsman was provided specific
information regarding the applicable rules and policies to which
she would be subject under the IPA Assignment Agreement. The
initial IPA Assignment Agreement signed by the Ombudsman included
a section concerning the applicability of rules, regulations, and
policies. This section referred to, among other things,
information concerning termination of the assignment, recovery of
travel expenses if the assignment was not completed, and the
applicability of reduction in force procedures of her permanent
employer. The Ombudsman certified under this section that she
would observe the rules and policies governing the internal
operation and management of the Department.

However, the Ombudsman said that no one ever discussed the
details of the IPA Assignment Agreement with her. She said, for
example, that no one told her that she would be expected to
notify the Department if she changed her residence. The
Personnel Management Specialist, who worked on the appointment of
the Ombudsman, could not recall whether she gave the Ombudsman
copies of the regulations or Federal Personnel Manual sections
regarding IPA assignments. No one that we interviewed within the
Department who was involved in the appointment of the Ombudsman
said that they had provided any such information to the
Ombudsman. This includes staff from the Office of the Chief
Financial Officer, the Office of Personnel, and the Office of
Economic Impact and Diversity (ED), the office to which the
Ombudsman was assigned.

     Procedures For Claiming Reimbursement

The Ombudsman said, with respect to claims for per diem, that she
was surprised that members of the ED staff, who were Federal
employees, would not know the rules. The ED staff member who
prepared the documentation for collection of per diem by the
Ombudsman, said that, although paperwork had been prepared, no
travel vouchers had been submitted prior to the travel voucher
that was submitted in June 1994. She provided documents showing
that ED staff members had first prepared a Standard Form 1034,
Public Voucher for Purchases and Services Other Than Personal,
instead of a travel voucher to claim per diem for the Ombudsman.
She said that someone told her that use of this form to claim per
diem for the Ombudsman had been based on advice received from the
Office of the Chief Financial Officer. The ED staff member said,
however, that when she was given the task to prepare the
documentation to claim per diem for the Ombudsman, she contacted
two individuals in the Office of the Chief Financial Officer
regarding questions she had concerning the use of Standard Form
1034 to claim per diem. She said that these individuals advised
her that per diem for the Ombudsman should be claimed on travel
vouchers, which should be prepared every thirty days.

In January 1996, we were told by the travel policy specialist in
the Office of the Chief Financial Officer that no written
guidance regarding the documentation required to claim per diem
under an IPA Assignment Agreement existed, but that a draft
policy was being reviewed. A copy of the draft policy was
provided to us. This policy was subsequently issued by
memorandum dated March 5, 1996, Subject: "Travel of
Intergovernmental Personnel Act Assignees." In the memorandum,
the Controller said, regarding per diem payments, that: "For
accounting purposes, these costs are to be charged to object
class 21 and reimbursed through submission of periodic travel
vouchers (at least every 30 days)." This object class specifies
that reimbursement for per diem is paid from travel funds.

     Incorrect "Points of Travel" Information

We found that travel vouchers submitted by ED for reimbursement
of per diem claims by the Ombudsman under the IPA Assignment
Agreement incorrectly listed Orange, New Jersey, as one of the
"Points of Travel." However, we found no evidence that the
references to Orange, New Jersey, on the travel vouchers were an
attempt to obtain a benefit to which the Ombudsman was not
entitled.

The Ombudsman said that she sold her home in Orange, New Jersey,
in December 1993, and had been renting an apartment in the
Washington, D.C., area since
October 2, 1993. She said that she considered herself to be
living in Maryland since coming to work for the Department, but
she said that she expected to return to New Jersey at the end of
her appointment with the Department. We reviewed the travel
vouchers submitted by ED during the period June 1994 to August
1995, which were for reimbursement of per diem for the Ombudsman.
All the travel vouchers, except a travel voucher that involved
her travel to South Africa, showed Orange, New Jersey, in the
"From" column as a point of travel.

The ED staff member who prepared the travel vouchers for
reimbursement of the Ombudsman's per diem said that initially she
put Orange, New Jersey, as the point of travel in the "From"
column because she was not aware the Ombudsman had sold her home
in New Jersey. She also said that it was included because she
believed New Jersey was the Ombudsman's residence to which she
would be returning after her temporary appointment with the
Department.

Both the ED staff member who prepared the travel vouchers and the
Ombudsman said that when the ED staff member presented the
Ombudsman with the first travel voucher, which was submitted in
June 1994, she (the Ombudsman) questioned the reference to
Orange, New Jersey. The ED staff member said that she "cut
short" the Ombudsman's question regarding the reference to
Orange, New Jersey, and told her to sign the travel voucher,
since that was her understanding of how the travel voucher should
be prepared.

     Questions Regarding Receipt of Per Diem By the Ombudsman
After Her Change of Residence

The Ombudsman said that she discussed the sale of   her home in New
Jersey with people in ED at the time of the sale.    This was
confirmed by both the ED Director and her Special   Assistant, who
both said that the Ombudsman advised them she had   sold her home.
They said that these discussions took place about   the time of the
sale of the Ombudsman's home in December 1993.

The ED staff member who prepared the Ombudsman's vouchers stated
that she was not aware that the Ombudsman had sold her home until
perhaps October 1994, when the Special Assistant to the ED
Director asked her whether she was aware that the Ombudsman had
sold her home. The ED staff member said that she raised the
issue with the ED Director of continuing to pay the Ombudsman per
diem given the sale of her home. However, we did not find other
evidence that the staff member had raised the issue at that time.
Neither the ED Director nor the Special Assistant recalled the
staff member questioning the payment of per diem to the Ombudsman
in the context of the sale of her home. The ED Director, her
Special Assistant, and the staff member who prepared the vouchers
all said that that they believed the Ombudsman was entitled to
per diem based on the conditions set forth in the IPA Assignment
Agreements.

The ED Director, her Special Assistant, the ED staff member who
prepared the vouchers, the Personnel Management Specialist who
worked on the IPA appointment, and a travel policy specialist
from the Office of the Chief Financial Officer, all recall having
conversations regarding the continued payment of per diem to the
Ombudsman. However, these conversations related to the desire of
officials within ED to cease paying per diem to the Ombudsman
based on a lack of funding within the ED budget to cover the per
diem required under the IPA Assignment Agreement.

The ED staff member who prepared the travel vouchers said that
she later called someone in either the Office of Human Resources
or the Office of the Chief Financial Officer. She said she asked
specifically about the payment of per diem to the Ombudsman, who
she believed may have moved to the Washington, D.C., area.
We were provided notes, dated August 24, 1995, by the Personnel
Management Specialist in the Office of Human Resources who worked
on the appointment of the Ombudsman. These notes were of a
conversation that she had with the travel policy specialist from
the Office of the Chief Financial Officer regarding payment of
per diem to the Ombudsman. According to the notes, the travel
policy specialist said that per diem is paid to people that
maintain "separate tables" (two residences, e.g., one in
Washington, D.C.). He stated that a "budget crunch" would have
no impact on continuing per diem payments to the Ombudsman.
However, the notes indicated that he stated that if she moved to
Washington, D.C., allowances should be discontinued.

The travel policy specialist from the Office of the Chief
Financial Officer said that he had discussed, possibly with
someone from the Office of Human Resources who had been contacted
by someone in ED, the possibility of terminating per diem
payments to the Ombudsman because of budget considerations.
According to the travel policy specialist, he told the individual
that per diem could not be changed unless circumstances were
changed, for example, if the Ombudsman moved her household goods
to Washington, D.C., she would no longer be entitled to per diem.

On March 5, 1996, the Controller issued a memorandum, Subject:
"Travel of Intergovernmental Personnel Act Assignees." According
to the memorandum, it is the Departmentms policy to pay per diem expenses
to IPA assignees in Washington, D.C., ". . . who incur expenses for
conventional lodging . . . and who continue to maintain permanent residences
at places outside the Washington, D.C., commuting area."   We
found no evidence that, with respect to IPA assignees, a
statement of such a policy existed prior to the issuance of the
March 5, 1996, memorandum. Also, we note that the memorandum is
silent whether IPA assignees at locations other than Washington,
D.C., must maintain a permanent residence outside the commuting
area of their assignment to receive per diem payments.

     Improper Signature By Approving Official On Travel Voucher

During our review of the Ombudsman's travel vouchers, we
determined that the Special Assistant to the ED Director had
improperly signed the name of the ED Director to one of the
travel vouchers. The Special Assistant said that she had
independent signature authority for travel vouchers and could
have signed "for the Director" using her (the Special
Assistantms) name. She said that on one of the travel vouchers
she signed the Director's name.

By memorandum dated June 27, 1996, the Director, Office of
Economic Impact and Diversity, provided comments on our initial
draft report. She said that the Special Assistant has the
authority to sign her name whenever appropriate.

We discussed this comment with the Special Assistant. The
Special Assistant said that she probably signed the Director's
name instead of her own name on the Ombudsman's travel voucher
because the Director had signed all the previous travel vouchers
for the Ombudsman. She said that she believed the Director's
signature on the Ombudsman's travel voucher would have been more
appropriate. She also said that she believed at that time she
had not done anything inappropriate because she had the authority
to approve travel vouchers.

It is not appropriate, in our view, for the Special Assistant to
sign the ED Director's name on travel vouchers. We reviewed the
Travel Authorization and Program Manager Signature Card signed by
the ED Director on August 29, 1995. This card has the name of
the Special Assistant, whose title was then Deputy Director for
Minority Economic Impact, typed at the top of the card, and the
signature of the Special Assistant. The statement above the ED
Directorms signature at the bottom of the card reads, "I certify
to the signature and authority of the above individual for the
documents noted." Among the documents listed, for which the
Special Assistantms signature was authorized, were travel
vouchers.

Also, we asked the Chief, Travel Audit Section, Office of the
Chief Financial Officer, about signature authority for
individuals to sign travel vouchers. He said that a person
authorized to sign travel vouchers based on the submission of a
completed Travel Authorization and Program Manager Signature Card
could sign their own name on travel vouchers or sign their own
name "for" the official who had delegated authority to them. He
said that under no circumstances is an employee permitted to sign
someone else's name on a travel voucher. He said that if anyone
on his staff became aware that an employee had signed someone
elsems name, the voucher would not be processed.

Recoupment of Per Diem Payments From the Ombudsman

We found that the Chief Financial Officer, who is the official
authorized to determine the existence and amount of employee
debt, did not make a formal decision with respect to the
existence of a debt owed by the Ombudsman. The Chief Financial
Officer told us that recoupment actions are routinely handled by
members of his office and do not require his specific approval.
The Chief Financial Officer said that three offices were involved
in making the determination that the Ombudsman needed to repay
per diem that she received following the sale of her home in New
Jersey. He said that he was aware that a determination had been
made and that a demand letter had been sent to the Ombudsman to
recoup the per diem payments, but that he did not take any
specific action, such as signing a formal document, to establish
the existence of a debt. He said that since his office took
action to recoup the per diem payments, he was responsible for
the action.

We found that the Chief Financial Officer's authority had not
been delegated to the officials who caused the recoupment of the
per diem payments. When we interviewed the Director, Office of
Headquarters Accounting Operations, regarding the authority to
determine the existence and amount of employee debt, he said that
he had been making these determinations, but had been recently
advised that he did not have written delegated authority to
perform this function on behalf of the Chief Financial Officer.
He said that, with respect to the Ombudsman, he had not made the
determination that a debt existed. We also interviewed the other
officials involved in the process of recouping the per diem
payments from the Ombudsman. Although their actions resulted in
the recoupment of the per diem payments, none of these officials
said that they made the determination that a debt existed.

We found that when the Office of General Counsel concurred in the
issuance of the demand letter for recoupment of per diem payments
that had been made to the Ombudsman, the Office of General
Counsel was concurring only in the adequacy of the form of the
demand letter and not in the determination that the Ombudsman was
not entitled to per diem following the sale of her home. During
our discussions with officials in the Office of the Assistant
General Counsel for General Law, we raised questions regarding
the legal basis for the determination that a debt existed and the
issuance of a demand letter to recoup the per diem payments from
the Ombudsman. We understand that the Office of General Counsel
has initiated a legal review of these matters.

The Secretary said that after the publication of an article in
the Los Angeles Times regarding the payment of per diem to the
Ombudsman, she directed someone to refer the matter to the Office
of General Counsel. A Special Assistant to the Secretary said
that because of a Freedom of Information Act request to the
Department from the Los Angeles Times, he had requested the
Assistant General Counsel for General Law to review the
Ombudsmanms travel vouchers. The Special Assistant said that his
request for a review was not based on any particular concerns he
had about the travel vouchers, but that he had noticed during his
review of the travel vouchers that per diem had been paid to the
Ombudsman.

The Assistant General Counsel for General Law said that he and
his staff reviewed the Ombudsman's travel vouchers pursuant to
the request from the Special Assistant to the Secretary in late
1995. He said that they initially had concerns about the payment
of per diem to the Ombudsman beyond a one-year period, but that
they determined such payments were legally permissible. Neither
the Special Assistant nor the Assistant General Counsel for
General Law or his staff addressed at that time the issue
regarding the Ombudsman's sale of her home in Orange, New Jersey,
or its possible impact on her receipt of per diem.

The Special Assistant to the Chief Financial Officer said that at
some point he had learned, possibly from the travel policy
specialist in the Office of the Chief Financial Officer, that the
Ombudsman might not be entitled to per diem because she had
relocated to Washington, D.C. According to the travel policy
specialist in the Office of the Chief Financial Officer, he had
heard, one or two years earlier, that the Ombudsman had moved to
Washington, D.C.

The Special Assistant to the Chief Financial Officer said that he
met with the Ombudsman and discussed with her the sale of her
home and her receipt of per diem. The Ombudsman said that at her
initial meeting with the Special Assistant to the Chief Financial
Officer, which occurred sometime in November or December 1995, he
indicated to her that she should not have received per diem after
she sold her home in New Jersey. The Special Assistant to the
Chief Financial Officer and the Ombudsman said that the Ombudsman
expressed an immediate interest in repaying any amounts
improperly paid to her.

     Determination Not Made of Existence of a Debt

We found that the Chief Financial Officer, who is the official
authorized to determine the existence and amount of employee
debt, did not make a formal decision with respect to the
existence of a debt owed by the Ombudsman. Also, we found that
the Chief Financial Officerms authority had not been delegated to
the officials who caused the recoupment of the per diem payments.
Although the actions of these officials resulted in the
recoupment of the per diem payments, none of these officials said
that they made the determination that a debt existed.

DOE Order 2200.2B, Collection From Current and Former Employees
for Indebtedness to the United States, dated June 9, 1992, states
in paragraph 7b that: "The Chief Financial Officer and Heads of
Field Elements or Designees shall:

     "(1)   Determine the existence and amount of employee debt.

     "(2) Promote voluntary repayment of employee debts,
whenever possible, using demand letters."

The Chief Financial Officer told us that recoupment actions are
routinely handled by members of his office and do not require his
specific approval. The Chief Financial Officer said that three
offices were involved in making the determination that the
Ombudsman needed to repay per diem that she received following
the sale of her home in New Jersey. He said that he was aware
that a determination had been made and that a demand letter had
been sent to the Ombudsman to recoup the per diem payments, but
that he did not take any specific action, such as signing a
formal document, to establish the existence of a debt. He said
that since his office took action to recoup the per diem
payments, he was responsible for the action.

In addition, we found that the Chief Financial Officer's
authority to determine the existence and amount of debt had not
been delegated to the officials who caused recoupment of the per
diem payments. We interviewed the individuals in the Office of
the Chief Financial Officer, the Office of Human Resources, and
the Office of General Counsel who were involved in the process
which led to the issuance of a demand letter to the Ombudsman.
Although their actions resulted in the recoupment of the per diem
payments, none of these officials said that they made the
determination that a debt existed.

According to the Special Assistant to the Chief Financial
Officer, the travel policy specialist in the Office of the Chief
Financial Officer, the Director, Office of Financial Policy, and
the Director, Office of Personnel, they met to discuss the issue
of payments of per diem to the Ombudsman in view of information
indicating the Ombudsman had sold her home in New Jersey. The
meeting was also attended by the Personnel Management Specialist
who worked on the appointment of the Ombudsman. The Special
Assistant to the Chief Financial Officer, the Director, Office of
Financial Policy, and the Director, Office of Personnel, all said
that a consensus was reached that the Ombudsman should not have
collected per diem after she sold her home in New Jersey. When
we interviewed these three individuals, none of the individuals
said that they were responsible for having made the decision that
the Ombudsman should repay the per diem she received after the
sale of her home.

The Special Assistant to the Chief Financial Officer said that,
following the meeting, he advised the Director, Office of
Headquarters Accounting Operations, the Chief, Accounting
Operations Branch, and possibly the Deputy Director, Office of
Headquarters Accounting Operations, that a conclusion had been
reached that the Ombudsman was not entitled to per diem following
the sale of her home in New Jersey. Subsequently, personnel in
the Office of Headquarters Accounting Operations calculated the
amount of per diem payments made to the Ombudsman after the sale
of her home and drafted a demand letter to collect the money from
the Ombudsman.

No one we interviewed in the Office of Headquarters Accounting
Operations who had been involved in either the calculation of the
amount or the preparation of the demand letter said they were
responsible for the decision that the Ombudsman was improperly
paid per diem and owed the money to the Department. We
interviewed the Director, Office of Headquarters Accounting
Operations, regarding the provisions in DOE Order 2200.2B
concerning the authority to determine the existence and amount of
employee debt. He said that he had been making these
determinations, but had been recently advised that he did not
have written delegated authority to perform this function on
behalf of the Chief Financial Officer. He said that, with
respect to the Ombudsman, he had not made the determination that
a debt existed.
     Impact of Sale of Home on Per Diem Payments

We did not find a legal requirement for the Ombudsman to maintain
a residence outside of the Washington, D.C., commuting area to
receive per diem under the provisions of her IPA Assignment
Agreement.

The IPA Assignment Agreement under which the Ombudsman was
appointed provided for the payment of per diem, but contained no
reference to the payment being contingent on maintaining a
residence outside the Washington, D.C., commuting area. From our
review of the Intergovernmental Personnel Act, the Federal
Personnel Manual, which was applicable at the time of the
appointment of the Ombudsman, OPM regulations that implemented
the IPA, and the Federal Travel Regulations, we found no
requirement that an IPA assignee needed to maintain a residence
outside the commuting area to which the individual was assigned
in order to receive per diem. Therefore, we could not identify a
legal prohibition against paying per diem to the Ombudsman under
her IPA Assignment Agreements following the sale of her home.

     Concurrence By General Counsel In Demand Letter

We found that when the Office of General Counsel concurred in the
issuance of the demand letter for recoupment of per diem payments
that had been made to the Ombudsman, the Office of General
Counsel was concurring only in the adequacy of the form of the
demand letter and not in the determination that the Ombudsman was
not entitled to per diem following the sale of her home. During
our discussions with officials in the Office of the Assistant
General Counsel for General Law, we raised questions regarding
the legal basis for the determination that a debt existed and the
issuance of a demand letter to recoup the per diem payments from
the Ombudsman. We understand that the Office of General Counsel
has initiated a legal review of these matters.

The Secretary said that she did not provide direction, nor did
she get involved in the decision that the Ombudsman needed to
repay per diem. She said that she had been advised, probably by
either the General Counsel or Deputy General Counsel, that there
was a draft document that concerned an Office of General Counsel
opinion that under law and regulation the Ombudsman owed the
government for per diem she received while in Washington, D.C.
The Secretary said her only concern at that time was the apparent
inability of the Office of General Counsel to determine the
amount owed, but she understood someone "in Finance" was helping
to compute the amount.

According to a staff member in the Accounting Division, Office of
Headquarters Accounting Operations, a draft of the demand letter,
which was prepared by the Accounting Division, was provided by
the Special Assistant to the Chief Financial Officer to the
Office of the Assistant General Counsel for General Law for
review. The Office of the Assistant General Counsel for General
Law reviewed the draft demand letter and recommended changes to
the demand letter. In late December 1995, the Deputy Director,
Office of Headquarters Accounting Operations, forwarded the
changes recommended by the Office of General Counsel to the
Chief, Accounting Operations Branch, and asked that the demand
letter be revised. A revised demand letter for review by the
Office of General Counsel was prepared by the Accounting
Operations Branch and provided on January 2, 1996, to the Special
Assistant to the Chief Financial Officer.

We obtained a copy of the January 2, 1996, revised demand letter
that contained initials of the Assistant General Counsel for
General Law and two members of his staff. We interviewed these
individuals regarding whether they concurred in the draft letter
and what their concurrence meant. One staff member said that she
did not review the basis for the Department's decision that the
Ombudsman's per diem payments should be recouped. She said that
she reviewed the letter to determine if it contained appropriate
language that was required by regulation to be in a demand
letter. The other staff member said that she concurred in the
language in the letter, but not the substance. She said that her
concurrence in the demand letter was based on her understanding
that the information in the first two paragraphs of the letter
(which stated that a debt was owed based on the Ombudsmanms
failure to maintain a residence in New Jersey) was factual.

The Assistant General Counsel for General Law characterized his
concurrence as more with the format of the letter than with the
substance of the letter. He said that the assumption was that
the Department was correct in its decision that the per diem
payments to the Ombudsman should be recouped. He also said that
in hindsight, before concurring in the demand letter, the Office
of General Counsel should have examined the legal basis for the
Departmentms decision to recoup the per diem.

During our discussions with officials in the Office of the
Assistant General Counsel for General Law, we raised questions
regarding the legal basis for the determination that a debt
existed and the issuance of a demand letter to recoup the per
diem payments from the Ombudsman. We subsequently learned that,
following these discussions, the Office of General Counsel
initiated a legal review of the basis for the Department's
actions to recoup the payments.

     Collection of Debt

On January 5, 1996, the Ombudsman repaid the amount of per diem
payments identified in a January 4, 1996, demand letter, which
was hand-delivered to her by the Special Assistant to the Chief
Financial Officer.

According to the letter to the Ombudsman, dated January 4, 1996,
signed by a staff member in the Accounting Division, the
Ombudsman had received an overpayment of $21,208.70 in per diem
allowances during the calendar years 1994 and 1995. The letter
requested that she repay the amount to the Department. In
addition, the letter stated that:

     "Specifically, per diem payments were authorized by the
agreement to provide for living expenses in a temporary residence in the
Washington, D.C., area while you continued to maintain a permanent
residence in New Jersey."

The Special Assistant to the Chief Financial Officer said that he
provided the Ombudsman a copy of the January 4, 1996, demand letter that
had been sent to him by facsimile by the Accounting Division. The
demand letter stated that the Ombudsman owed $21,208.70 for
overpayment of per diem. He said that the Ombudsman objected to
the implications in the demand letter that she had knowledge of
the overpayments to her and that she was to blame for the
overpayments. The Ombudsman said that she repaid the amount in the
January 4, 1996, demand letter based on her reliance on the information she
received from the Special Assistant to the Chief Financial
Officer that the money was owed pursuant to law.   She said,
however, that she had objected to the language in the demand
letter that implied that she had knowledge that she should not
have received the per diem after the sale of her home.

We obtained a copy of a DOE cash receipt dated January 5, 1996,
which showed that the Ombudsman repaid the Department in the
amount of $21,208.70.

The January 4, 1996, demand letter was superseded by a second
demand letter dated January 5, 1996, which was signed by the
same staff member in the Accounting Division who had signed the
January 4, 1996, letter. A comparison of this letter with the
January 4, 1996, letter provided to the Ombudsman by the Special
Assistant to the Chief Financial Officer showed that the January
5 letter contained only a change in the due date of the payment
from February 3, 1996, to February 4, 1996.

The Secretary said the Ombudsman had called her and expressed her
(the Ombudsman's) concerns about the demand letter which
indicated the Ombudsman was at fault for receiving per diem
payments. The Secretary said that she did not want to get
involved in the matter and had one of her Special Assistants work
with the Ombudsman on a reply to the demand letter.

By letter dated January 5, 1996, the Ombudsman wrote to the Chief
Financial Officer regarding her concerns with the implication in
the January 4, 1996, demand letter that she had knowledge that
her acceptance of the per diem payments had been inappropriate.
She said that she had never been informed that her eligibility
for receiving additional living expenses (per diem) was tied to
her retaining her permanent residence in New Jersey.

In a letter to the Ombudsman, dated January 11, 1996, responding
to her January 5, 1996, letter to the Chief Financial Officer,
the Chief, Accounting Operations Branch, stated that the purpose
of the demand letter was to recover erroneous payments without
any "stated or implied culpability" on her part. He provided his
assurance that the demand letter had not been intended to state
or imply wrongdoing or knowledge of wrongdoing.

Withholding For Per Diem Payments
We found that procedures were not in place to ensure that a
determination was made whether per diem received by the Ombudsman
was subject to Federal tax withholding. Therefore, per diem
payments received by the Ombudsman under her IPA Assignment
Agreements may not have been subjected by the Department to
proper tax withholding.

On September 24, 1993, the Acting Chief Financial Officer issued
a memorandum, Subject: "Taxation of Travel Expense
Reimbursements," to Heads of Departmental Elements. The
memorandum stated that employment away from home in excess of one
year would not be treated as temporary. As a result, any amounts
paid to reimburse an employee for travel expenses with respect to
a "temporary" assignment in excess of one year should be included
in an employeems gross income and subject to withholding.

We discussed the September 24, 1993, memorandum with the travel
policy specialist in the Office of the Chief Financial Officer.
He said that, for an individual under an IPA Assignment
Agreement, if the original assignment was intended to be less
than one year, there would be no requirement for the Department
to withhold and report per diem payments received under the
Agreement. He said, however, that if a decision is made to
extend the original assignment, the Department is required to
withhold and report on per diem payments for payments after being
notified of the extension. If the assignment was intended to be
longer than one year, the per diem payments should be subjected
to withholding and reporting. If, during the period of an
original IPA Assignment Agreement that was intended to be one
year, a decision is made to extend the Agreement beyond one year,
it is the program officems responsibility to notify the DOE
travel office and the DOE payroll office to initiate withholding.
He said that information regarding withholding of travel expense
reimbursements is not in a DOE order, it is only in memorandums
such as the September 24, 1993, memorandum, and he said that
perhaps the information should be included in an order.

As discussed previously, the initial IPA Assignment Agreement for
the Ombudsman was for the period from October 4, 1993, through
September 30, 1994. On September 22, 1994, an SF-50, Notification of
Personnel Action, was approved by the Office of Personnel extending the
Ombudsman's appointment not to exceed June 30, 1995. Subsequently, on
June 12, 1995, a corrected SF-50 was approved by the Office of Personnel
showing that the Ombudsmanms appointment was extended not to exceed
September 30, 1995. A review of travel vouchers submitted by the Ombudsman
shows that she received per diem payments for more than a one-
year period. Specifically, she received per diem for the period
from her initial appointment on October 4, 1993, through August
31, 1995.

According to the Director, Accounting Division, Office of
Headquarters Accounting Operations, his office was responsible
for "picking up" tax liability for expenses that are paid for
extended travel that goes beyond one year. He said that he was
not aware whether taxes had been withheld for reimbursements of
per diem to the Ombudsman that went beyond the first year of her
assignment. At our request, the Chief, Payroll Branch, reviewed
records to see whether taxes were withheld for the payment of per
diem to the Ombudsman under her IPA Assignment Agreement for the
period from October 4, 1993, through July 31, 1995. The Chief,
Payroll Branch, said that there were no records for the Ombudsman
of tax withholding related to "IPA payments."

By memorandum dated March 5, 1996, Subject: Travel of
Intergovernmental Personnel Act Assignees, the Controller stated
that with respect to withholding of taxes for reimbursements for
extended travel that: "The program office is responsible for
notifying the individual of this potential tax liability and for
reporting it to the servicing accounting office to ensure that
withholding is initiated."


VI.   RECOMMENDATIONS

Based on our review, we recommend that:

The Assistant Secretary for Human Resources and Administration:

     1. Ensure that internal policies and procedures regarding
the determination of qualifications and salary levels of
individuals being considered for IPA assignments are
consistently applied to all applicants.

     2. Ensure that IPA Assignment Agreements are processed in
accordance with established policies and procedures, e.g.,
all required signatures obtained, prior to the individual
beginning the assignment.

     3. In coordination with the Office of the Chief Financial
Officer, ensure that the review and approval of initial IPA
Assignment Agreements that contain provisions for the
payment of per diem, and extensions of those Agreements,
include a determination of the appropriateness of providing per
diem or continuing per diem.

     4. Inform program officials and IPA assignees of options,
responsibilities, and procedural requirements with respect to
travel allowances appropriate for IPA assignments based on
guidance developed by the Office of the Chief Financial
Officer.

The General Counsel:

     5. Determine whether the following actions by the
Department were consistent with law and regulation:

          a. Payment of per diem to the Ombudsman pursuant to
her initial IPA Assignment Agreement;

           b. Payment of per diem to the Ombudsman pursuant to
extensions of her IPA Assignment Agreements for a period in excess of
two years;

           c.   Payment of per diem to the Ombudsman subsequent to
the sale of her residence in New Jersey; and

          d. The Departmentms debt collection action to recoup
payments made to the Ombudsman after the sale of her
residence in New Jersey.

           6. Establish internal procedures to require General
Counsel staff to annotate a concurrence on a decision or
action document to note any limitations regarding the scope
of the concurrence.

The Chief Financial Officer:

     7. Ensure that decisions regarding the recoupment of funds
from Departmental employees are made by the authorized official
or an individual delegated such authority, and that the bases
for such decisions are adequately documented.

     8. Based on the legal opinion by the General Counsel
regarding the entitlement of the Ombudsman to receive per
diem under the provisions of her IPA Assignment Agreements,
recommended above, determine what additional actions are
appropriate.

     9. Determine if the policy in the Controllerms March 5,
1996, memorandum, Subject: "Travel of Intergovernmental
Personnel Act Assignees," regarding payment of per diem to
IPA assignees maintaining a separate residence outside the
area in which they are assigned, should apply to individuals
having IPA assignments in areas other than the Washington,
D.C., metropolitan area. If so, revise the memorandum to
reflect this policy.

     10. Conduct a review of payroll records for individuals on
extended temporary duty assignments to ensure that the
Department is adhering to the requirement to subject
reimbursements for temporary travel beyond one year to
withholding for tax purposes.


VII.   MANAGEMENT COMMENTS

By memorandum dated July 8, 1996, the Assistant Secretary for
Human Resources and Administration provided the Departmentms
comments on our initial draft report. He said that the
Department had concurred with all of the recommendations made in
the initial draft report, and provided a summary of planned
actions, as well as a matrix of responsibilities for those
actions.

With respect to Recommendations 1 and 2, he said that by July 31,
1996, the Office of the Deputy Assistant Secretary for Human
Resources will issue a written policy reminder to Servicing
Personnel Offices, and procedures will be discussed during an
upcoming monthly conference call with personnel officials
Department-wide.
With respect to Recommendation 3, he said that by July 31, 1996,
the Office of the Deputy Assistant Secretary for Human Resources
will issue a policy reminder to Servicing Personnel Offices to
forward IPA Assignment Agreements to the Office of the Chief
Financial Officer for appropriate review, including provisions
for per diem authorizations and payment of travel and
transportation expenses, prior to approval of the agreements.

With respect to Recommendation 4, he said that by October 1,
1996, written guidelines on payment of relocation expenses and
per diem will be developed by the Chief Financial Officer. The
Deputy Assistant Secretary for Human Resources will provide them
to both the IPA assignee and the head of the office to which the
individual is assigned. He suggested that we revise the
recommendation in our initial draft report to clarify the
respective responsibilities of the Office of Human Resources and
Administration and the Office of the Chief Financial Officer. We
have revised our recommendation to reflect his suggestion.

With respect to Recommendation 5, he said that by August 22,
1996, General Counsel will provide its legal opinion to the Chief
Financial Officer to determine whether certain actions by the
Department related to the payment of per diem to the Ombudsman
and the collections of payments made were consistent with law and
regulation.

With respect to Recommendation 6, he said that by August 22,
1996, General Counsel will issue a reminder to its staff that a
concurrence on a decision or action document should be annotated
to identify any limitations regarding the scope of the
concurrence.

With respect to Recommendation 7, he said that by July 31, 1996,
appropriate delegations will be reviewed to ensure that officials
charged with the responsibility to identify and collect debts to
the Department are properly delegated authority to do so.

With respect to Recommendation 8, he said that General Counsel
has not yet issued an opinion. The Office of the Chief Financial
Officer will work with General Counsel to pursue the appropriate
settlement of the per diem issue.

With respect to Recommendation 9, he said that by July 31, 1996,
a clarification of the March 5, 1996, memorandum will be issued
to ensure that IPA assignments to places other than the
Washington, D.C., area reflect the fact that assignees will not
be authorized per diem when they commute from their homes to
their places of duty during their IPA assignments if they no
longer maintain a residence at their permanent duty station.

With respect to Recommendation 10, he said that by July 31, 1996,
a request will be sent to Heads of Departmental Elements to
examine temporary duty assignments of their personnel to
determine if withholding of taxes on travel payments is
appropriate. These officials will be required to report to the
Office of the Chief Financial Officer on actions taken to ensure
compliance with the Internal Revenue Code.
